<html>
<title> - [H.A.S.C. No. 111-55] COUNTERINSURGENCY AND IRREGULAR WARFARE: ISSUES AND LESSONS LEARNED</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-55] 

                    COUNTERINSURGENCY AND IRREGULAR 

                      WARFARE: ISSUES AND LESSONS 

                                LEARNED 

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 7, 2009

                                     
            [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-052 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
JIM COOPER, Tennessee                BILL SHUSTER, Pennsylvania
JIM MARSHALL, Georgia                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              THOMAS J. ROONEY, Florida
PATRICK J. MURPHY, Pennsylvania      MAC THORNBERRY, Texas
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant



















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Thursday, May 7, 2009, Counterinsurgency and Irregular Warfare: 
  Issues and Lessons Learned.....................................     1

Appendix:

Thursday, May 7, 2009............................................    31
                              ----------                              

                         THURSDAY, MAY 7, 2009
  COUNTERINSURGENCY AND IRREGULAR WARFARE: ISSUES AND LESSONS LEARNED
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Miller, Hon. Jeff, a Representative from Florida, Ranking Member, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     2
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1

                               WITNESSES

Kagan, Dr. Frederick W., Resident Scholar, The American 
  Enterprise Institute...........................................     6
Kilcullen, Dr. David, Partner, Crumpton Group LLC, Senior Fellow, 
  EastWest Institute, Member of the Advisory Board, Center for a 
  New American Security..........................................     2
Lund, Dr. Michael S., Consulting Program Manager, Project on 
  Leadership and Building State Capacity, Woodrow Wilson Center..    10
Schirch, Dr. Lisa, Director, 3D Security Initiative, Professor of 
  Peacebuilding, Center for Justice and Peacebuilding, Eastern 
  Mennonite University...........................................    14
.................................................................

                                APPENDIX

Prepared Statements:

    Kagan, Dr. Frederick W.......................................    43
    Kilcullen, Dr. David.........................................    37
    Lund, Dr. Michael S., joint with Dr. Lisa Schirch............    50
    Miller, Hon. Jeff............................................    36
    Smith, Hon. Adam.............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  COUNTERINSURGENCY AND IRREGULAR WARFARE: ISSUES AND LESSONS LEARNED

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                             Washington, DC, Thursday, May 7, 2009.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Good morning. I will call the committee to 
order. I apologize for being a little bit late. We were in 
back-to-back hearings this morning, from 9 to 10 and then from 
10 forward. So there was a little transition time, but thank 
you very much for being here.
    We are here this morning as part of our continuing 
discussion on irregular warfare and how we design our national 
security defense apparatus to deal with the changing threats 
that we face: the basic, principal threat being that we now are 
most likely to face our main threats from non-state actors and 
terrorist groups, and we are moving into the debate of the next 
defense budget which talks a great deal about where we should 
be spending our money to meet this threat.
    As we evolve forward from the Cold War days and the notion 
that we should be prepared to fight two major conventional wars 
at the same time is the idea of how we can confront many 
different terrorist organizations in many different areas, 
principally interested in counterinsurgency tactics. But there 
are many, many implications for policy and budget that we need 
to work out as we go forward to confront this threat.
    And we are very lucky today to have four experts in these 
fields to tell us a little bit about what they think we ought 
to be doing so that we can get ready for the budget cycle.
    I have a full statement which I will submit for the record, 
but I will leave it at that so we can get to the witnesses as 
quickly as possible. And I turn it over to the Ranking Member, 
Mr. Miller, for any opening statement he may have.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 35.]

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Miller. Thank you very much, Mr. Chairman. Absolutely, 
we all await this budget cycle to see the details of Secretary 
Gates' vision in the fiscal year 2010 Defense budget. I look 
forward to hearing from the witnesses today and yield back. I 
would ask that my statement be entered in the record.
    Mr. Smith. We will do that, and thank you very much.
    [The prepared statement of Mr. Miller can be found in the 
Appendix on page 36.]
    Mr. Smith. With that, we will turn over to the witnesses. I 
will introduce all four. We will work our way left to right. 
Try to keep your statements somewhere between 5 and 10 minutes. 
We will then get into questions after that.
    First, we have Dr. David Kilcullen, who is a partner in the 
Crumpton Group, LLC, and a Senior Fellow at the EastWest 
Institute and member of the Advisory Board, Center for a New 
American Security, also is very, very involved in the campaign 
that was developed in Iraq. Look forward to hearing your 
testimony.
    Dr. Frederick Kagan, Resident Scholar of the American 
Enterprise Institute, also regularly testifies before the Armed 
Services Committee, has done so about Iraq and other national 
security policies as well. Always a pleasure to see you.
    Dr. Michael Lund, Consulting Program Manager, Project on 
Leadership and Building State Capacity, from the Woodrow Wilson 
Center. Good to see you as well.
    Dr. Lisa Schirch, Director from the 3D Security Initiative, 
Professor of Peacebuilding, Center for Justice and 
Peacebuilding, Eastern Mennonite University.
    Thank you all for being here. Look forward to your 
testimony.
    Dr. Kilcullen.

STATEMENT OF DR. DAVID KILCULLEN, PARTNER, CRUMPTON GROUP LLC, 
   SENIOR FELLOW, EASTWEST INSTITUTE, MEMBER OF THE ADVISORY 
           BOARD, CENTER FOR A NEW AMERICAN SECURITY

    Dr. Kilcullen. Mr. Chairman, thank you for having me. I 
would just like to take a moment to thank your professional 
staff for being so incredibly flexible over the past week while 
I have been sitting on my ass with flu, not swine flu, just 
regular old human kind.
    Mr. Smith. Did that make it better that it wasn't part of 
the great threat?
    Dr. Kilcullen. I would like to focus my opening remarks 
mainly on counterinsurgency and unconventional warfare, because 
there is a lot of expertise in other areas at the table, and I 
would like to just give the areas that I am most focused on.
    Since 9/11, I have fought and worked alongside some 
incredibly professional and brave American men and women from 
the Department of Defense (DOD), from the United States Agency 
for International Development (USAID), State, Justice, the 
Department of Agriculture, Department of Homeland Security, in 
theaters right away across the war on terrorism from Iraq, 
Afghanistan, Pakistan, the Horn of Africa, parts of Southeast 
Asia and even Latin America. So I am offering these comments as 
a non-American but one who has seen a really incredible process 
of adaptation and improvement across all the branches of the 
U.S. Government since 9/11, and I think that is something that 
you and they should be very proud of.
    Regular army units--that is, conventional, standard 
infantry, artillery or cavalry units operating on the ground 
today have techniques and capabilities that only existed in 
certain Special Forces units in 2001, and special mission units 
have capabilities, as you well know, that only existed in 
Hollywood in 2001. So they have seen an incredible, 
development, adaptation and improvement.
    We have learned a lot of lessons on the way, and we still 
have some lessons that I think we need to lock in as we go 
forward. So let me focus on two areas. One is best practices 
for counterinsurgency, and the other is surrogate forces in 
unconventional warfare.
    In my written testimony, I have listed what I consider to 
be the eight key best practices, and I just want to run through 
them very quickly.
    The first one, the most important, is that to be successful 
in counterinsurgency you need to have a political strategy that 
builds government effectiveness and legitimacy, while 
marginalizing insurgents, winning over their sympathizers, and 
coopting local allies. That is the most important thing. It was 
our most important weakness in Iraq and Afghanistan going in, 
and fixing that has been one of our most important successes.
    Second key best practice is that you need a comprehensive 
approach that closely integrates civil and military efforts----
    Mr. Smith. I am sorry to interrupt. You said Afghanistan. 
Did you mean Iraq in terms of fixing it in this one of our most 
important successes, or did you mean Afghanistan?
    Dr. Kilcullen. I think actually both, much more so in the 
case of Iraq. But in Afghanistan I think we are on the right 
track to getting a viable political strategy in the sense of 
what kind of Afghan government do we want to see, how do we 
want that Afghan government to function, what are the steps we 
are going to take to put that government in place. That is what 
I mean by a political strategy, not so much a U.S. political 
strategy, but a strategy on the ground for standing up the 
government that we are trying to support.
    So then the second best practice is a comprehensive 
approach that integrates civil and military efforts based on a 
common diagnosis of the situation and a solid long-term 
commitment to the plan. The third is continuity of key 
personnel and policies and people having sufficient authority 
and resources to do their jobs.
    The fourth one is population-centric security which is 
based on presence, on local community partnerships, on making 
populations self-defending, and on small unit operations that 
keep the enemy off balance.
    The fifth one is cueing and synchronization of development, 
governance and security efforts, so that the three work in 
parallel together to generate a unified effect.
    The next one is close and coordinated and genuine 
partnerships between intervening coalition forces and the local 
communities on the ground. The seventh one is strong emphasis 
on building effective and legitimate local security forces, 
with the emphasis on local.
    And then the final one is a region-wide approach that not 
only deals with the insurgency in the country where it is 
manifesting but also tries to disrupt insurgent safe havens, 
control borders and frontiers, and undermine terrorist 
infrastructure in neighboring countries.
    We can expand on each of those if you would like to in Q 
and A, but my observation across all the theaters where we have 
been operating since 9/11 is that where we have applied those 
best practices we have done better than in places where we 
haven't. So I think there is some pretty good empirical 
evidence on that, that that is the way to go.
    These are basically lessons we learned. We already knew 
this stuff in the sixties. We almost deliberately forgot it 
after Vietnam. But the next category is something that is a 
little different, which is the use of surrogate forces, and I 
guess as a cautionary point here, that we sometimes learn the 
wrong lessons from campaigns that we conduct.
    I want to take you back to 2001 where we did the lightning-
fast, seven-week campaign to topple the Taliban. After the end 
of that campaign, Secretary Rumsfeld said that we engaged in a 
transformational campaign that basically changed the rules of 
warfare, and he focused on the use of small, light-footprint 
Special Operations Forces (SOF) on the ground, backed by 
precision air power, and that was sort of his description of 
what the recipe was for success.
    General Franks who commanded the force also said that 
Intelligence, Surveillance, and Reconnaissance (ISR) coming 
from space-based and high altitude and also unmanned systems 
was critically important. And he said in his memoirs that he 
had the kind of god-like perspective that Homer gave to his 
heroes based on all that. He was obviously very pleased with 
his performance in Afghanistan.
    I won't agree with both those points, but I think they 
weren't actually the main reason why we succeeded in 
Afghanistan. On 7 December, 2001 when the last Taliban 
stronghold fell, which is Kandahar, we only had 110 Central 
Intelligence Agency (CIA) officers and about 300 U.S. Special 
Forces operating in that part of Afghanistan, but we had 50,000 
Afghans fighting on our side against the Taliban. That, I 
think, is the real reason why we succeeded in 2001.
    I have talked to hundreds of Afghans on the ground since I 
have been working in the field since 2006. None of them has 
ever described to me what happened in 2001 as an invasion. They 
always talk about we kicked out the Taliban and you assisted 
us, and I think that the use of surrogate forces and building 
partnerships with local communities was actually the critical 
element of our success in 2001.
    Mr. Smith. How did that happen so fast--sorry to 
interrupt--pre-9/11, these forces were out there but they 
really weren't making much progress. And then in a matter of, 
gosh, a month and a half after 9/11, was it as simple as, you 
know, the Afghan warlords saying, we see which way the wind is 
blowing and it is blowing against the Taliban so we are going 
to go against them? What made that rapid change?
    Dr. Kilcullen. It was an extremely conscious approach, 
based on our CIA campaign plan of winning and generating 
partnerships with local commanders. And you know, I wasn't on 
the ground with those teams, but my boss was, and he has told 
me in detail and we have published accounts of how they 
operated where they essentially dropped in by helicopter, 
established relationships with people, identified what the 
critical requirements were, and were able to back them up 
rapidly, whether it be medical supplies, blankets, food aid and 
so on, on the one hand, or a Joint Direct Attack Munition 
(JDAM) to clear away a Taliban position on the other.
    So a full spectrum approach of clearing the obstacles out 
of the way of our local partners and bringing them on our side 
led to basically a cascading series of defections from people 
that supported the Taliban, and groups in the civil society, 
coming alongside U.S. Forces, leading to that success.
    I want to point also to al Anbar in 2007 where pretty much 
exactly the same thing happened, where we had enough forces on 
the ground finally to make people feel safe enough to turn 
against al Qaeda. And once we were able to enable that, we had 
the whole of civil society on our side, and we were able to 
push al Qaeda in Iraq out of that province relatively quickly, 
after years of failure, based on building a population alliance 
with people on the ground.
    So the arithmetic of local security forces is actually very 
important here. We do not have and we will not ever have enough 
forces to generate that sort of dominant 20 counterinsurgents 
per thousand head of population, which is sort of the 
theoretical number that people talk about. But if you generate 
local alliances, you can really radically compensate for that 
lack of forces.
    Let me give you an example, and then I will finish on this 
point. Imagine that we had had 50,000 U.S. troops to put into 
Iraq in 2007, extra troops. We didn't have those, but imagine 
we did. If we had put them in, we would have had a benefit for 
that 50,000 troops investment of about 10,000 out on the ground 
at any one time, because you have to run your headquarters, you 
have to look after your lines of communication. That takes 
about 20,000 troops out of your 50,000. And then the remaining 
30,000 have to be on a rotation plan. They have got to be out 
patrolling but then resting and then preparing. So you only 
have about a third of those guys out on the ground at any one 
time. So the bang for the buck is 10,000 out of an investment 
of 50,000.
    Now, let us put an alternate possibility. Instead of 
putting 50,000 U.S. troops in theater, we recruit and gain on 
our side 50,000 Iraqis, which is actually what we did. Instead 
of getting a benefit of your investment for 10,000, you get the 
full 50,000 out on the ground all the time. There is no 
headquarters, no lines of communication, no rotation plan. They 
live there. So you get a benefit of 50,000. But actually it is 
more than that, because those 50,000 guys who work for us used 
to be in the enemy's recruiting pool. They used to work for the 
enemy. So the benefit is a net benefit of 100,000. We gain 50, 
the enemy loses 50. So the benefit of recruiting and employing 
local security forces on our side is 10 times the benefit 
putting in American troops into the same environment.
    When you look at the dollar cost as well, it is 
dramatically more cost-effective to work by, with, and through 
local partners. And as you know, that is what we talk about in 
terms of foreign internal defense. It is one of the areas that 
we have been weakest on in terms of our lessons learned since 
9/11.
    What I will do is stop there and let the other witnesses 
testify and then perhaps you may wish to pick at some issues.
    Mr. Smith. Certainly. Thank you very much.
    [The prepared statement of Dr. Kilcullen can be found in 
the Appendix on page 37.]
    Mr. Smith. Dr. Kagan.

  STATEMENT OF DR. FREDERICK W. KAGAN, RESIDENT SCHOLAR, THE 
                 AMERICAN ENTERPRISE INSTITUTE

    Dr. Kagan. Thank you very much, Mr. Chairman, members of 
the subcommittee; and thank you also, congressional staff, for 
being very gracious about the outrageous lateness of my 
testimony and I apologize.
    Mr. Kline. Did you have the flu?
    Dr. Kagan. I didn't even have that excuse, I am sorry, but 
I am sure I will have the flu now.
    Customarily, when Dave and I do our traveling road show, we 
spend a lot of time saying, I agree with everything he said. In 
this case, I agree with almost everything that he said. But 
since there are actually a couple of things that I am not so 
sure I disagree with, but I would like to put a little bit 
sharper point on it, I would like to start with that.
    First of all, the difference between surrogate forces and 
local security forces and I think it is very important to 
highlight that distinction which Dave made, but to bring that 
out. Surrogate forces are forces that you use instead of your 
own troops to fight on your behalf, pursuing your interests as 
well as their own, and that is what we did in Afghanistan in 
2001.
    I am less pleased with the outcome of that operation than a 
lot of other people have been, and I have always been less 
pleased with the outcome of that operation because the 50,000 
Afghans that we had--and Dave is absolutely right about how 
that war was won, unquestionably true--but the 50,000 Afghans 
did not form a cohesive force, could not be allowed on their 
own to form a government because the government would not have 
been legitimate, and were not in fact able to hold the country 
on their own. And there was no way that you were going to build 
local security forces in that context rapidly enough to fill 
the security gap that was created by the collapse of what 
little government the Taliban had been providing in time to 
prevent what actually happened, which is sort of a 
fragmentation of the country and some renewed warlordism and, 
in general terms, creating conditions for some of the problems 
that we now face.
    The answer to that, of course, is not to send 500,000 
American troops into the country, but it was to send some 
American troops, and ideally international troops, into the 
country because the thing to take away here is that the 20-odd 
thousand population requirement for counterinsurgency is real, 
it is a real requirement. Dave is absolutely right that you 
have to count local security forces in that mix, and it is not 
a question of we have to put 20 troops on the ground for every 
thousand of population, nor would it be desirable or 
sustainable in any sense for us to do that. But you do have to 
meet that requirement; otherwise you run the risk of real deep 
lawlessness that can set conditions for long-term failure, even 
after what looks like a very stunning success, which is what 
happened in 2001.
    And so the question is, how do we initially fill the gap 
between whatever exists after we have helped someone else take 
down a government, or whatever we have done, and how long it 
takes actually to develop the local security forces that will 
be necessary. That is our exit strategy, if you will, is 
developing local security forces, legitimate government, civil 
society, and all those things that are necessary. But we do 
have to have a plan for filling the security gap with our own 
forces, with international forces, otherwise you can't get 
there from here.
    And so I think that leads into the point that I tried to 
emphasize in my testimony, which is although we are engaged in 
wars against unconventional enemies fighting irregular warfare 
against us, what we need to fight those wars are the 
conventional true tools of state craft that we actually have. 
We need to apply them properly.
    There is a lot of sort of search in this town and around 
this country for some sort of magic bullet that would allow us 
to fight our enemies without maintaining large, expensive, 
conventional forces, and without having to deploy our troops, 
and by using local proxies and so forth. And I know that that 
is not what Dave is advocating, but there are a lot of people 
who are advocating that. And it is distressing that a lot of 
arguments that we heard during the strategic pause of the 1990s 
about how to be a cheap hawk are resurfacing now with, really, 
virtually no changes made to them, as though the last eight 
years didn't happen. And that is very distressing to me because 
that didn't work. We tried that.
    The problem is, it is not that we haven't tried that. We 
did try that. That is what we did in 2001. That is what we did 
in 2003 in Iraq. We experimented with this. Small footprint, 
high technology, blitzkrieg, get in, get out. And the problem 
is that it doesn't work.
    And so I am worried that we are being led down a path again 
of trying to persuade ourselves that there is some way to do 
this that is less painful; and as usual, I am here to say, no, 
it is going to hurt. We need this capability to fight the kind 
of enemies that we face. We are going to have to pay for this 
capability, and there really isn't any alternative.
    I would like to ask that my written testimony be submitted 
for the record. I don't want to recite it for you. What I would 
like to do instead is listen to the words of my favorite, the 
greatest novelist of all time, Leo Tolstoy, who said in 
describing his writing process, ``The key is show, don't 
tell.''
    And so instead of sort of lecturing you about general 
principles, I would like to take you through the three map 
slides that I have given you to underline the point that I 
don't think you can actually have an abstract conversation 
about how to do this beyond what Dave has laid out, which is 
very solid and spot-on.
    But if you are going to take it to the next level and 
really understand what we need to do, you actually have to put 
enemies on the ground in context and talk about what you are 
facing and how you have to deal with it. And since obviously 
the most significant intellectual challenge we face right now 
is in Afghanistan and Pakistan, I would just like to quickly 
take you through what the enemy set is and talk very, very 
briefly about what we need to be doing about this.
    If you start with the first slide that is labeled Major 
Enemy Groups, the point that this slide attempts to make is 
that we are facing seven, eight, nine, ten significant enemy 
groups in Afghanistan right now, of which only about three 
actually have objectives within Afghanistan. And that would be 
the Quetta Shura Taliban of Mullah Omar, the Haqqani Network 
that is now based in Meydan Shahr in north Waziristan, and the 
Hizb-e Islami Gulbuddin (HIG), Gulbuddin Hekmatyar's group 
which is much less significant than the other two and operates 
in the east.
    These are the only groups that are actively trying to 
achieve objectives in Afghanistan, and these are the groups 
that are the principal threats to American mission failure or 
mission success in Afghanistan right now. If we don't, in 
conjunction with the Afghan government and while setting up 
civil society and a variety of other things, defeat these 
groups, then we are not going to succeed in Afghanistan.
    The problem is these groups are very heavily focused on 
Afghanistan. That is really what they are focused on, and if 
you look at them and ask are these major threats directly to 
United States national security, are these groups going to 
attack us, the answer is no, that they are not. These are not 
global jihadist groups. These are not, right now, even regional 
jihadist groups. These are Afghan-focused groups. So why are we 
fighting them? We are fighting them because we need to succeed 
in Afghanistan. Why do we need to succeed in Afghanistan if 
these groups aren't trying to actively hurt us?
    Well, part of the answer is because we know that Mullah 
Omar previously provided safe haven to Osama bin Laden, is 
certain to do so again. Jalaluddin Haqqani has personal 
friendships with Osama bin Laden; invited him to his territory 
in the eighties, would certainly do so again. So we could have 
the recurrence of a safe haven, but that is a secondary 
concern.
    The real concern is that when you look across the border 
into Pakistan, what do you see? You see a collection of other 
groups that are playing in Afghanistan. They are sending 
fighters to Afghanistan, they are working on killing Americans 
in Afghanistan, but they don't actually have objectives in 
Afghanistan.
    And those groups include the Tehrik-e Taliban in Pakistan 
(TTP) with Baitullah Mehsud's group. They include Tehrik-e 
Nafaz-e Shariat-e Mohammadi (TNSM), Sufi Mohammad's group, and 
they include the Lashkar-e Tayyiba (LeT) and, of course, al 
Qaeda.
    Why are those guys fighting in Afghanistan? Well, it is a 
good place to kill Americans, and for those groups, it is 
always a good day when you can kill an American. It is live-
fire training for their cadres. This is where they send their 
troops to experience war and get blooded. They are willing to 
accept much higher attrition rates in training than we would 
be, and it is also a way for individual commanders to gain 
combat patches and then bid for participation in one of the 
shuras in Pakistan.
    So it is a very strange dynamic. And you could say, well, 
if we pulled out of there wouldn't these guys stop fighting us? 
Well, if we weren't there, they wouldn't be fighting us, that 
is for sure, and they might well lose interest in Afghanistan 
to some extent.
    But here is the thing. These are the groups that pose the 
principal threat to the stability of Pakistan, and, if you 
include Lashkar-e Tayyiba, to the stability of the entire 
region. Lashkar-e Tayyiba is commonly identified as a Kashmiri 
separatist group, which is the one thing it is not. It is not 
primarily Kashmiri. It is primarily Punjabi. Its headquarters 
are not in Kashmir. They are in a small town called Muridke 
which is near Lahore. It has something like 2,200 offices 
throughout Pakistan.
    And if you flip to the next slide, I tried to give you some 
idea of the major LeT bases, which include a significant base 
in Karachi from which parts of the Mumbai attack were launched.
    This is a very significant challenge to the region and 
global security order, because the objective of LeT is not to 
regain Kashmir but to destroy India; to destroy Hindu India and 
sort of make the world safe for India's Muslims. That is what 
LeT is all about. If it is allowed to proceed, it will destroy 
the subcontinent. That is its objective. This is a major 
problem for us.
    TNSM and TTP are much more focused on Pakistan. I know that 
Baitullah Mehsud said he is going to blow up the White House, 
and I wish him luck with that; but fundamentally, these are 
groups that are a threat to Islamabad.
    Mr. Smith. You don't exactly wish him luck.
    Dr. Kagan. I don't exactly wish him luck. I don't wish him 
luck at all. I thank you for correcting me.
    Mr. Smith. Just for the record.
    Dr. Kagan. Just for the record I wish him failure, but I am 
not going to lay awake nights worrying about him doing that 
either. But if we succeed in Afghanistan, we have the 
opportunity not only to see these groups, as we now can, and to 
interact with them to some extent, as we now can, but also to 
influence the populations among which they exist, because the 
most important bases for these groups lie in the Federally 
Administered Tribal Areas (FATA) in Balujistan and in the 
Northwest Frontier Province, a part of that which is another 
problem, and those populations are heavily influenced by what 
goes on in Afghanistan.
    As an example, we have recently, working with the Afghans, 
succeeded in making something of a success out of the town of 
Khost. Khost is the home base of Jalaluddin Haqqani, and it is 
a major problem for Haqqani that Khost looks like it is 
succeeding in the context of American and Afghan efforts. 
Haqqani and the Inter-Services Intelligence (ISI) have said it 
is a priority to defeat our efforts in Khost, because if they 
don't defeat our efforts in Khost it delegitimizes their 
movement in their heartland. Their heartland extends into 
Waziristan.
    Where am I working to with this? I reject the notion that 
there is some grand unified field theory of Pakistan that will 
get us magically to the solution of all of our problems there. 
I don't think there is. I think it is a vital American national 
security interest to work toward the stability of Pakistan. I 
think we need to use the instruments and opportunities that are 
available to us to do that.
    I think when you understand what the enemy laydown looks 
like and how the groups overlap and how the populations 
overlap, you can see how important it is to succeed in 
Afghanistan as something that we can affect directly in 
Pakistan, in contrast to the many, many things that we can't 
affect directly in Pakistan, to work toward Pakistani 
stability. And I think your successful Pakistani strategy, at 
best, will end up being a composite of a variety of things that 
we can do and leverage that we can generate, and pressures and 
incentives that we can apply, put together over a long period 
of time to move Pakistan in the right direction.
    But that is why I think it is, in many respects, less 
useful to talk about general, how do we fight the 
unconventional war, how do we fight the global insurgency, if 
you will--even though I think that is a valid concept, and I 
think those principles are important--than it is to say let us 
look at the specific problem that matters most to us and let us 
talk about what the challenges are, what the enemies and the 
threats are, and what our capabilities are. And if we do that 
in a number of areas, including areas that I am not competent 
to talk about--like Somalia, Yemen, Egypt, Algeria and so 
forth--that is the only way you can really figure out what your 
force requirement is. That is the only way that you can really 
figure out what your large strategy is going to be, because the 
solution set for each one of those problems is going to be 
different. It is going to be based on the principles that Dave 
identified and some other general principles, but it will be a 
unique solution, because each one of those problems is unique.
    And so what I would like to leave you with is let us have 
the general conversation but let us also talk about specifics 
as we think about this defense budget. And I would encourage 
you to press Defense Department officials and the military 
officials who testify before your committee and your 
subcommittee to speak in detail and not just offer you general 
bromides about how they are going to address these problems.
    I thank the committee.
    Mr. Smith. Thank you very much.
    [The prepared statement of Dr. Kagan can be found in the 
Appendix on page 43.]
    Mr. Smith. Dr. Lund, I understand you are going to testify 
and then Dr. Schirch is going to be available for questions.
    Dr. Lund. That is correct.
    Mr. Smith. Please go ahead.

 STATEMENT OF DR. MICHAEL S. LUND, CONSULTING PROGRAM MANAGER, 
  PROJECT ON LEADERSHIP AND BUILDING STATE CAPACITY, WOODROW 
                         WILSON CENTER

    Dr. Lund. Thank you. Well, thank you all for this 
opportunity to present some insights and ideas about a phase of 
conflict which does not get as much attention as the active 
ones.
    Basically, we are going to talk about what is actually 
going on in societies that are on early warning lists and are 
threatened with the potential for insurgencies and terrorism or 
other kinds of conflict, in terms of what we have learned from 
these experiences or what needs to be done to make them even 
more effective.
    If you want to put it in military jargon terms, we have a 
chart on page three that came from DOD. We are talking about 
what is actually going on out there in phase zero, what is 
called the steady state, in terms of nonkinetic activities on 
the part of both civilian and military agencies and 
Nongovernmental Organizations (NGOs), and how can we use those 
activities, those programs, those tools, to avoid getting into 
phase II, III, IV and V altogether.
    Let me say a little bit our own experience. Lisa and I have 
had the privilege, I think you might say, of going to lots of 
obscure, relatively obscure, remote places like Tajikistan, 
Guyana, rural Georgia, northern Kenya, Uzbekistan, Zimbabwe, 
Indonesia, Serbia, Lebanon, Sri Lanka and so on over the last 
several years, some of which are in active conflicts as you 
know, some of which at least show indicators of potential 
conflict.
    What we would like to do is share some of our insights from 
both our direct observation, as well as our research. We are 
both sort of half practitioner and half analyst. So we try to 
take an independent position vis-a-vis the various clients that 
we may serve at various times.
    The need for difficult, often deadly, counterinsurgency, 
counterterrorism campaigns, can be reduced to some extent, not 
completely, by targeted strategic efforts to preempt the 
ability of insurgent groups to capture the hearts and minds of 
the populations in these kinds of vulnerable societies. The 
typical conditions that the populations are motivated by or 
concerned about are lack of daily security, absent or corrupt 
government services, discrimination against certain regional 
groups or ethnic and sectarian groups, lack of job 
opportunities, especially for young men, lack of any political 
voice, and lack of unity and great factionalism at the higher 
levels of the governments, as well as the addition of extremist 
ideologies that seem to offer a way to remedy these grievances.
    Addressing these factors in a very specific and targeted 
way, through close analysis done on the ground, and using a 
variety of actors with various kinds of programs addressing the 
various drivers of conflict, can avoid the need for getting 
involved in militarily internal wars or for humanitarian 
intervention to prevent a genocide like we have seen unfolding 
in Darfur, as well as save the money that is spent on many 
post-conflict reconstruction countries.
    We cite some data from research that has compared the costs 
of wars of this type with the preventive efforts that were made 
in similar situations. Other countries where there were risk 
factors evident but preventive activities were taken, such as 
Macedonia, and the ratios between the costs of military efforts 
and other efforts compared to the preventive efforts are really 
incredibly great. The average in one study was 1:59; that is, 
the preventive activity costs, the ratio, 1:59, however you put 
that.
    The good news is the thousands of low-visibility programs 
in mediation, governments, governance development, human 
rights, as well as track two diplomacy and so on in these 
countries from Azerbaijan to Zambia. For example, I did a study 
of what USAID has been doing in southern Serbia, in the Presevo 
Valley east of Kosovo, where as you know there was an Albanian 
insurgency in 2001, in terms of what kind of reconciliation, 
what kind of building of defense against a reemergence of 
conflict between the Albanians and the Serbs might occur.
    And in Presevo city itself, town itself, there are several 
activities that are sort of working in tandem to create a more 
responsive budget process in Presevo, vis-a-vis that particular 
district, as well as at the village level, bringing together 
Serbs and Albanians in joint projects to do development.
    Those are just a couple examples of thousands of projects 
and programs that are going on and being carried out not just 
by the U.S. Government but by the U.N., the Organization for 
Security and Co-operation in Europe (OSCE), some of the 
multilateral organizations, regional organizations like the 
Economic Community of Western African States (ECOWAS).
    In some ways what this hearing is bringing out is that 
there has not been a lot of conversation between the security 
communities and the development communities, so that this area 
called phase zero is basically zero. I mean, it is an unknown 
territory for the security community. But what I am saying is 
that those of us in the peacebuilding or development 
communities have been actually working with a number of these 
sorts of activities, programs, and there is just a lot going on 
there that we need to understand better and link up to a more 
coherent strategy: police training, microcredit, nonarmed 
protective accompaniment, election monitoring, civic education, 
disarmament, Disarmament, Demobilization and Reintegration 
(DDR) activities, civil society forums and so on.
    And as I say, organizations like ECOWAS, for example, in 
West Africa have been quite active in mediating some of the 
election disputes coming up during the campaigns in places like 
Guinea-Bissau and so on. One doesn't read about this in the 
newspaper because it is not particular exciting information, 
but it is very important and it has had its definite effects.
    Over these years since the middle nineties, a number of 
researchers have tried to collect some of the lessons from some 
of these situations. I will just mention a couple of them, and 
you will find that they are quite compatible, quite 
supplementary and corroborative of what has already been said 
by David and Fred.
    Among the most successful examples in the Baltic, South 
Africa, Slovakia, Albania and, for example, Kenya last year, 
where there was fast-track diplomatic effort by the U.S. and 
U.N., most of them have been multidimensional in nature; that 
is, they are a short-term diplomatic effort that is brought to 
bear immediately on the behaviors, the most threatening 
activity by high-level leaders. But there is also effort at 
addressing reconciliation issues and so on at the lower level 
among the general population. So a combination of carrots and 
sticks, along with dialogue that is applied in a fairly 
concentrated and synchronized manner in both situations where 
there are threatening clouds on the horizon, and when that is 
best----
    Mr. Smith. Sorry, Doctor. Could I ask you a specific 
question about that? This is actually an area that this 
subcommittee, and myself in particular, are very interested in, 
the merger of sort of global development strategy with security 
strategy. And some of those conversations actually are starting 
a little bit, particularly with Special Operations Command 
(SOCOM) and State Department, and it is an awkward 
relationship. They have different sorts of viewpoints on the 
world, and to a certain degree don't trust each other. But it 
is beginning, and I think making that happen is absolutely 
critical to our security strategy; leveraging all of our 
national ability, you know, from State Department, Agriculture, 
whatever is necessary to do the development piece that you 
talked about, meshing that up with some of the stuff that DOD 
is doing. Particularly with SOCOM, because SOCOM does, what 
creeps up to being development in a lot of areas, and how they 
work together with the State Department I think is critical.
    The two questions I have about that, that I would like you 
to try to address in the remainder of your testimony, is how 
can we better coordinate development strategy in our country. I 
have a very strong bias that it is hopelessly screwed up at the 
moment, but there are a lot of good things going on in 
isolation, but they are in no way coordinated and do not come 
together in any sort of cohesive strategy.
    One little sub-piece of that is the degree to which that 
strategy is based on a general approach to reducing poverty, 
which would be a good place to start, but, on the other hand, 
meshing that with our security needs. That is where the 
development community tends to freak out a little bit. It is 
like you care more about poor people and devastating things 
happening in Pakistan because of security than you do in, say, 
somewhere in Latin America, because you don't think you have a 
security interest. But we have to care about our security in 
terms of how you put out that money, how do you mesh that.
    And then beyond coordinating our global development 
strategy as a country, how do you see the meshing of security 
and global development happening? What would be the best way to 
develop an interagency process to make that happen so that we 
are working more in concert?
    A big challenge there, of course, is dividing up 
responsibilities, you know, and trusting each other in terms of 
their talents. But I am curious, your thoughts on those two 
things.
    This is me kind of cheating and working in one additional 
question to the question time that I will have when you are 
done, but if you could address that.
    Mr. Marshall. You are not giving up your questions, then?
    Mr. Smith. No, I am actually not.
    Dr. Lund. Would you like us to address those questions?
    Mr. Smith. If you can take a stab at it. I realize you 
could give an hour-long answer to that. It would probably be 
better if you could do two or three minutes.
    Dr. Lund. Maybe Lisa has some things to add. I think you 
are right; the conversation has started, quite actively.
    The particular mechanisms, formulas and so on haven't been 
arrived at yet. Among the recommendations we were going to make 
were certainly to push that process much further, more 
vigorously. And we both had the experience, along with David a 
couple of weeks ago, to be involved--and Mr. Natter addressed 
this group--a week-long simulation that was designed and 
organized by the Center for Irregular Warfare of the Marine 
Corps that focused on a Horn of Africa scenario. And they 
brought together over 200 representatives, playing different 
roles, from DOD, State, USAID, multilateral organizations like 
the U.N., World Bank, France, Italy, U.K., and so on, to sort 
of ask the question, how would you behave in responding to this 
particular situation.
    It was an incredibly illuminating and, I thought, 
enlightened activity in terms of what has happened in this 
field so far. I have been working on conflict prevention for 
over ten years, and I thought this was the most coherent and 
on-the-case event that I have been at. And a number of 
recommendations came out of that which address exactly your 
concerns. So I would really advise----
    Mr. Smith. I will take a look at that, those 
recommendations.
    Dr. Lund. I don't know how much I can get into the details 
of exactly whether a central direction should be in the Office 
of the Coordinator for Reconstruction and Stabilization (SCRS) 
in State Department or the National Security Council. Maybe the 
other panelists have specific ideas of that.
    That event spent quite a bit of time working through 
obstacles and funding authorities and so on. I don't think 
there is a magic, clear--there is a consensus that that needs 
to be figured out. That was one of our main points. I don't 
think it would be that helpful for me to run through one 
approach or another.
    [The joint prepared statement of Dr. Lund and Dr. Schirch 
can be found in the Appendix on page 50.]
    Mr. Smith. Dr. Schirch, do you have something quick you 
want to say? And then I think I will go to Mr. Miller and begin 
the questions, unless there was something else.

     STATEMENT OF DR. LISA SCHIRCH, DIRECTOR, 3D SECURITY 
INITIATIVE, PROFESSOR OF PEACEBUILDING, CENTER FOR JUSTICE AND 
          PEACEBUILDING, EASTERN MENNONITE UNIVERSITY

    Dr. Schirch. Thank you, Chairman Smith and committee 
members, for inviting us here today.
    The field that we are talking about is conflict prevention, 
and this conference that Joint Forces Command (JFCOM), and the 
Marine Corps put on together was called ``Whole of Government 
Conflict Prevention.'' And many of us in the NGO community are 
working actively now to try to figure out how to build a more 
comprehensive approach to the issues of terrorism. And for the 
NGOs, we have been working actively on the ground in Iraq, 
Afghanistan, and we have many partner networks who are 
indigenous Iraqi NGOs and Afghan NGOs who have been sharing 
their perspective on counterterrorism and how best to prevent 
the spread of the kinds of insurgencies we see in these 
regions. And they very much want to be able to feed into the 
process.
    And part of the challenge here is that the interagency 
coordination is so new here in Washington that there are really 
no points of contact for NGOs who are on the ground, who have 
cultural intelligence, information to share that would inform 
U.S. strategy.
    Over the weekend, Dr. Kilcullen made some statements that 
were in the media about the drones flying over Pakistan, 
bombing villages, actually having a counter-effect to our 
national interests in the U.S.; that the drones ended up 
creating more fuel on the ground for recruitment into Taliban, 
al Qaeda insurgencies. We have been hearing that in civil 
society and NGOs for several years, that this kind of drone 
activity is counter to U.S. interests.
    So that is the kind of information civil societies want to 
give over and have conversations with the government. So it is 
actually very much in our interest as civil society to help to 
foster and think about what is the best way for the defense 
development, diplomacy tools of American power, how they are 
coordinated, because this impacts then how civil society can 
feed into the process.
    Again, we don't take particular stands on whether it is the 
State Department's Coordinator for Reconstruction 
Stabilization, although we very much support that, or the 
National Security Council (NSC). There are a variety of models 
that I think we need to have more hearings on how is this best 
going to be done in this country, because it is very urgent.
    The ratio of cost prevention versus response to terrorism 
is not met in terms of our U.S. budget in terms of national 
security. So several of us have argued for a unified security 
budget that would try to balance out more of these preventive 
responses because, right now, if you look at one tax dollar, 
less than half of a percent is going to all of our development 
activities abroad, whereas almost 60 percent of that dollar 
goes to defense approaches.
    So this balance is off and makes coordination in this 
interagency process very difficult. For USAID at the simulation 
on conflict prevention, they couldn't really risk a lot of the 
staff time because they have so few staff to even give over to 
this conversation.
    Mr. Smith. It also pushes DOD into doing a lot more 
development work than they are actually qualified to do because 
they have the money.
    Dr. Schirch. Right. And there were comments at this 
conference that DOD is being forced to create its own internal 
USAID, its own civilian response corps, which is mirroring 
structures that also exist in the State Department and USAID, 
which is a waste of taxpayer dollars.
    [The joint prepared statement of Dr. Schirch and Dr. Lund 
can be found in the Appendix on page 50.]
    Mr. Smith. I will yield to Mr. Miller to begin the 
questioning.
    And the other piece of that is the NGO community just gets 
really freaked out about the DOD getting involved in that, a 
little bit of paranoia there. But part of it also is good 
reason that when you are trying to build the type of support 
within a community that you need, there is a perception of the 
U.S. military that is different than a perception of an NGO or 
USAID that in some ways makes that mission more difficult.
    Dr. Lund. Another concrete answer to your question of how 
to move toward more coherent coordination is starting with a 
really good on-the-ground conflict assessment or field-state 
assessment and getting people on the same page in terms of what 
is going on in the situation, at the country level but then 
also at the Washington level region.
    Mr. Smith. Several of those have been done, Brookings and a 
few other folks. But with that, I really impinged upon the 
patience of my committee members here. So I will yield to Mr. 
Miller. We will stick to five minutes as we go around. Mr. 
Miller.
    Mr. Miller. You probably impinged on the patience of your 
colleague, Mr. Marshall, at the other end.
    Mr. Smith. He is always impatient. I am used to that.
    Mr. Miller. Dr. Kilcullen, would you care to expand on your 
comments regarding the drone activity?
    Dr. Kilcullen. Sure. In fact, the media report on the 
weekend was a quote from my congressional testimony in front of 
the House Armed Services Committee, which I think some 
committee members may already be aware of.
    Since early 2006, we have conducted a number of drone 
strikes into Pakistani territory. In that time, we have killed 
14 mid-level al Qaeda leadership and Taliban leadership targets 
in that area. In the same time frame, we have killed about 700 
noncombatant Pakistani civilians. That is a hit rate of about 
two percent: 98 percent collateral damage, two percent accurate 
hits.
    The strikes themselves, based on what we hear from 
community organizations in the FATA, actually are not 
particularly unpopular. There are people in the FATA who think 
it is actually a good thing that the bad guys have been struck. 
Where they are particularly unpopular is in the Punjab and 
Sind, and we have seen a very substantial rise in militancy in 
those parts of Pakistan over the time frame since 2006.
    What I said to the committee last week, or the week before, 
was there is no doubt that the strikes are very, very 
tactically useful in disrupting al Qaeda and in hampering their 
operations. Right now, because of the situation in the rest of 
Pakistan, they also have a downside, which is they are 
contributing to political instability.
    What I suggested to the committee was that right now our 
biggest problem is not the networks in the FATA but the fact 
that Pakistan may collapse if this political instability 
continues. And so I suggested that we may want to return to a 
much more narrow targeting approach of focusing only on al 
Qaeda senior leadership, only on targets that are in areas 
where the Pakistanis don't control the ground, and working with 
the Pakistanis rather than doing it unilaterally.
    So that is just to expand on the comments. But if you look 
in the testimony record from last week, there is a lot more 
there in that discussion.
    Mr. Miller. I yield back my time and give a chance to other 
members.
    Mr. Smith. Thank you. Mr. Marshall.
    Mr. Marshall. Dr. Lund, the idea of an ounce of prevention 
is worth of pound of cure, the statistic of the relationship of 
$1 of prevention might equal $59 of cure is very tempting. I 
wonder, Dr. Kilcullen, if you agree with those statistics.
    Dr. Kilcullen. I certainly don't know. I don't have any 
data to prove or disprove the 59:1. But I think it is certainly 
true that in considering intervening in countries, we often 
underestimate how much time, money and blood is going to be 
involved. It is a consistent pattern. Overall, nations that get 
involved in counterinsurgency over the last 200 or 300 years 
have tended at the outset to underestimate the costs and the 
difficulty of the process.
    I think where we can, we should most certainly be working 
to prevent rather than to treat conflict environments. I don't 
think that is necessarily a sound basis for capability planning 
within the DOD, though. I think we need to be focusing on the 
military as the force of last resort and structuring it so that 
it can actually get--it is like the difference between fire 
prevention and firefighting. You have to structure the fire 
department to fight the fires.
    Mr. Marshall. The problem that we--well, this is not new 
news. This has been a consistent worry of ours since World War 
II, actually----
    Dr. Kilcullen. Yes, and before.
    Mr. Marshall [continuing]. When we put a lot more money 
into foreign aid than we do right now. And the reason we don't 
put as much money into foreign aid is, politically it is very 
difficult to sustain that in a country that has lots of many 
other needs, and many of those needs are internal. So sometimes 
it is quite difficult to justify sending a dollar to someplace 
remote that could have been spent right here on your folks. And 
that is an easy target for politicians.
    We do routinely, however, spend huge dollars through DOD on 
preventive measures that may or may not be essential. For 
example, parking large numbers of soldiers in Europe and in 
Korea for extended periods of time, a cost of billions and 
billions of dollars.
    And I wonder to what extent, as you think about how we get 
more money into prevention, you think also about how whatever 
is set up can be politically sustainable. And if you look at 
history, you might wonder to what extent this does need to go 
through what is classified as national security somehow, as 
opposed to State Department; because if it just goes to State 
Department, it is going to get ultimately viewed as feel-good, 
generous money that American taxpayers are sending elsewhere, 
when that feel-good, generous American money could be spent 
meeting needs here at home. And so in the long run, it is very 
difficult to sustain.
    So that is just an observation I have been quite concerned 
about. We ought to take every opportunity we can to start 
putting more of this money through our security side as opposed 
to our State Department side, and if money goes to DOD and then 
somehow winds up in State, that is fine.
    How do you know when you need to spend a dollar for 
prevention? It seems to me that a dollar spent for prevention 
at the right place might be this 1:59 return because we avoided 
having to take corrective action, but a dollar spent for 
prevention, where, in 100 different places around the globe? We 
don't really know which of those places is ultimately--if we 
don't spend that dollar, we are going to wind up being 
something where we are going to feel like we need to take 
corrective action.
    So the ratio winds up being, really, when you think of the 
challenge of identifying where corrective action should be, it 
can't be 1:59. It is going to have to be a heck of a lot more 
than that.
    Dr. Schirch. Absolutely, these are important questions. Let 
me answer your first one in terms of the American public, 
because polls of Americans have consistently shown that they 
support foreign aid, and they assume that we are giving much 
larger quantities than we are. They assume that 25 percent of 
their tax dollar is going to foreign aid. They have no idea 
that it is less than one percent.
    Mr. Marshall. It could well be that they assume that 
because they are outraged at the very thought.
    Dr. Schirch. Absolutely. When they are asked what 
percentage of their tax dollars should go to foreign aid, it is 
10 percent, which is far above what we are even talking about 
in terms of prevention.
    Mr. Marshall. So it is less than 25 percent, so they are 
basically communicating that they want less spent on 
foreigners.
    Mr. Smith. I have been down this road a thousand times, and 
that is not the best argument that I have heard. I respect it 
being made, but the bottom line is, Mr. Marshall is right. The 
public has no idea what goes into the budget. All they know is 
they think too much is going in, and so they want it cut. That 
is not as helpful as it first appears, and I am pro-foreign 
aid. I say it as a friendly comment.
    Mr. Marshall. And me, too. It is just trying to figure how 
to do it in a sustainable way. But history shows it is 
unrealistic in a democratic political system to sustain it on 
just sort of feel-good stuff.
    Dr. Schirch. Although there is an assumption that we have 
of first resort, so that defense is our last resort. And I 
think if Americans understood how weak our first resort is in 
terms of State Department and USAID, and looking at the 
proportions of the budget--and I often speak to American 
audiences where I show them pie charts of where things are 
going, and they are stunned at that ratio.
    The other thing is in terms of choosing where we spend 
those preventive dollars, there is an extensive network, global 
network of early warning systems to identify, narrow down, 
prioritize those areas, so there is a recognition that we have 
to make choices.
    Mr. Smith. We will have to come back to this, if we could. 
I want to get to Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. I am reluctant to jump 
into this particular piece of it, but our perception is that 
the perception of the people in our districts think we are 
spending way too much on foreign aid, and it is an easy target 
for them. So it is tough politically.
    I am impressed by the number of NGOs that are around the 
world and the terrific work that they are doing. I remember 
being in Mogadishu back in the 1992-93 time frame. We were 
there for Operation Restore Hope and I was standing on the ramp 
out in front of my helicopter, getting ready to go do 
something. And this man walked up, and he was an NGO and he 
looked at my name tag and it said ``Kline'' on it. And he said, 
``Kline,'' he said, ``are you any relation to Vicky Kline?''--
who is my wife. They had served together. She was an Army nurse 
and they had served together some years ago. And so it is a 
small world thing, and they are everywhere, and there was no 
doubt that they have a good sense for what is going on.
    I am interested in knowing how better to tap into that, but 
it seems to me the one thing we have here is a very serious 
indictment of the country teams. We have ambassadors, we have 
embassies, we have people, we have State Department and all 
manner of representation in these country teams who, in theory, 
should be able to tell us what is going on in that country, 
that should be able to tell us if this is a country that maybe 
we need to intercede earlier. But somehow that is not 
connecting, and I am not sure exactly why that is. We have 
intelligence----
    Mr. Smith. Let me interrupt, just quickly. I think what the 
country team needs to tell you, they are telling you. And they 
know they only have the resources to deal with about five or 
so----
    Mr. Kline. Reclaiming my time, Mr. Chairman. If they are, 
then they are ineffective in the telling, because we are 
obviously not interceding, perhaps, where we should. So the 
system, I guess, is what I would say, Mr. Chairman, isn't 
working as it should.
    Mr. Smith. Absolutely.
    Mr. Kline. I want to go very quickly, and anybody can feel 
free to comment on any of this stuff. But I want to in my 
couple of minutes left, I was very interested, of course, in 
Dr. Kilcullen's points. And I wrote down, I think, the numbers 
three, four, six and seven on your list that have to do with 
personnel, continuity, population-centric, local security and 
so forth.
    And in going to the specifics that Dr. Kagan talked about 
in Afghanistan, we are in the process right now in putting in 
some 21,000 more U.S. Forces, and there are a number of issues 
here which aren't matching up with your list. For one thing, 
there are Marines going in, and the Marines on the ground are 
going to be there for seven months. Leadership will be there 
for a year, so we have got a little continuity problem going 
there. And the Commandant has told us he has big concerns about 
the other three that I went through there.
    There are not Afghan partners. The Afghan National Army 
isn't there in big numbers. The Afghan police isn't there in 
big numbers. There isn't a local security force. And so I am 
wondering what your thoughts are about what can we do. I mean, 
we are in the process of this now. I think everybody from the 
Commandant of the Marine Corps and General Petraeus and 
McKiernan and everybody across the road would like to see more 
interagency, and they would certainly like to see faster 
development of the Afghans. So, a comment from anybody.
    Dr. Kilcullen. Well, I might make a brief comment but then 
defer to Dr. Kagan who knows a lot about this topic.
    I think to a certain extent what we are doing in 
Afghanistan is filling in the gaps in the current North 
Atlantic Treaty Organization (NATO) plan. So if you look at 
where the NATO allies were located before the Afghan surge, we 
are putting U.S. troops into areas where there were not a lot 
of European troops to kind of fill the gap.
    I would argue that we ought, instead, to be identifying 
where the population lives primarily and focusing on securing 
the population as distinct from territory. That would be my 
first point.
    And the second point would be we need to be taking a 
partnering role where a U.S. unit always operates with an 
Afghan military unit and an Afghan police unit.
    Mr. Kline. Excuse me, but that is the complaint right now 
from the Marines, is there isn't that partner unit available.
    Dr. Kilcullen. Yeah, that is right. And so those would be 
my two sort of points of concern about where I am seeing things 
develop in Afghanistan.
    If I could just jump back very quickly to a previous point 
that you made, sir. There is a thing called the Regional 
Security Initiative that was created by the Counterterrorism 
Bureau in State precisely to address this question of reporting 
from posts and understanding the security environment. And 
there is a report, Country Report on Terrorism to Congress, 
that comes every year, which actually addresses all of those 
questions as well. You may be interested in holding a hearing 
on that issue because there has been some very substantial 
development inside State in the last few years on that.
    One other final point is two big changes happened to the 
foreign assistance world under President Bush. Firstly, a very 
substantial expansion of the foreign assistance budget. In 2000 
it was $11 billion; by 2008 it was $20 billion. So a lot more 
was being done in terms of foreign assistance.
    But the other big shift was that as of the end of the Bush 
Administration, more than half of that foreign assistance was 
being delivered in conflict or post-conflict environments, and 
yet we have an aid organization that is primarily structured to 
do aid as a poverty alleviation tool and not necessarily well-
organized or conceptually well-focused on operating in a 
conflict or post-conflict environment. I think we could do a 
lot to assist the USAID without necessarily spending a lot more 
money, with simply helping them get their heads around the new 
environment they are operating in.
    Mr. Smith. Dr. Kagan, go ahead.
    Dr. Kagan. Thank you. I think the last point is really 
critical, and I want to emphasize it. Mr. Chairman, I was 
itching to make a comment on your question along those same 
lines.
    The problem is exactly as Dave said. We have, you know, 
USAID, why is USAID in State? It is in State because of the 
Foreign Assistance Act. Why did we have the Foreign Assistance 
Act? Because we saw foreign assistance as being an aspect of 
our public diplomacy, and because we felt as a Nation that is 
very generous in their international giving, we felt that it 
was both in our interests and ethical for us to alleviate 
poverty.
    If you ask the question, why is this system broken now, the 
answer is the system isn't broken from the standpoint of what 
it was designed to do. The system was designed to be an adjunct 
of our public diplomacy. It was never designed to be a major 
element of our national security policy. And what we have come 
to realize over the course of the last eight years--which, 
granted, we should have known before--is that this kind of 
assistance is a critical part of our national security policy, 
and it ranges from everything from phase zero engagement to try 
to avoid conflict--and by the way, that includes military 
components as well. As you know, when military talks about 
phase zero, it doesn't mean fighting, but it does mean things 
that military forces can and should be doing. And it continues 
through conflict and post-conflict. But when you start beating 
up the State Department about why the country teams aren't 
doing this sort of thing and why the State Department isn't 
able to do this, this is not the State Department's job. The 
State Department is American----
    Mr. Kline. Country team is much more than just State.
    Dr. Kagan. Absolutely. And I was referring only to your 
comment. There is a tendency to beat up State about this a lot 
and say we really need to pound State into doing this right. I 
question that.
    The State Department is a diplomatic service, and we need 
to have a diplomatic service, and the purpose of a diplomatic 
service is to pass paper. That is what diplomats do--and have 
negotiations. Not only that, but primarily you don't have a 
diplomatic corps to conduct major operational planning and 
oversee the expenditure of huge amounts of money over large 
areas. That is not what a diplomatic corps does.
    So if you are going to look for an aid organization that 
can be a player in national security policy, I am not at all 
convinced that that should be State, and I think we really need 
to revisit it. It is a very fundamental question you raised, 
sir, and I think it really merits a lot more discussion than it 
has had.
    If I could beg your indulgence to comment briefly on the 
specifics in Afghanistan. I was last in Afghanistan in March of 
this year, and I had the opportunity to meet with the commander 
of the 205th Afghan Corps, who is based in Kandahar and has to 
fight in the south where the Marines are going to be going. And 
he raised a very interesting question. He said, ``Are you 
Americans trying to create an expendable Afghan Army or an 
enduring Afghan Army?''
    And what he meant by that was that we have been creating 
Afghan security forces, and the Afghans have been assigning 
them into combat without, as Dave says, rotational periods, 
which also means without rest periods, which also means without 
relief. There is no red, amber, green training cycle in that 
corps. If you are assigned to the 205th Corps, you are fighting 
all the time until you either retire or die, and that corps has 
been having some retention problems, and there are a variety of 
other things going on.
    Although I supported the President's statement of his 
policy--and I do support it and I strongly support it and I 
think it is the right policy--I was very disappointed by one 
thing in his speech. He did not commit to increasing the size 
of the Afghan National Security Forces. And this is a big, big 
problem, because if you look at the 20 counterinsurgents on the 
1,000 ratio that you need and you look at the population of 
Afghanistan, which by the way is an absolute swag, no one knows 
how many Afghans there actually are. We haven't had a census in 
30 years. And this is a major problem, as Dave was alluding to.
    But let us say there are about 30 million Afghans. You do 
the estimate and you would need about 600,000-some-odd 
counterinsurgents. Okay, let us cut it down and say that we are 
not fighting in parts of the country, although I don't find 
that persuasive, but okay. What are we aiming at?
    With the current augmentation of U.S. Forces, with the 
current planned end state for Afghan national security forces, 
by the end of 2011 we will have 316,000 forces total on the 
ground. Now, there are two problems with that. First is it 
doesn't get you the counterinsurgency ratio; and second is, 
since that is right now the permanent end state of the Afghan 
National Army, it doesn't give us an exit strategy. Because if 
we pull out even 100,000 foreign troops out of there, then you 
have got 216,000.
    So this is a problem, and it is really unfortunate that we 
have not focused enough on the expansion of the Afghan National 
Army, and I privilege that instead of the Afghan National 
Police for a reason. I think that we really need to consider 
the phasing of the development of security forces more than we 
have done hitherto. We want to get to an end state where you 
have police doing policing and not Army, but in the context of 
a war-torn society, with an ongoing counterinsurgency, right 
now that is not what we are focused on in the counterinsurgency 
area.
    The Marines are not interested in local beat cops on crime. 
The Marines are interested in how many counterinsurgents are on 
the ground. If you are trying to raise a police force to beat 
counterinsurgents, then you are not raising them to be a police 
force; and if you can't raise them to be a police force because 
the situation doesn't permit it, then you should be raising 
more counterinsurgents, and that means Army.
    So what we should be doing in Afghanistan, among other 
things--and I agree entirely with Dave also that we are seeing 
gap-filling with these soldiers and we have not seen a 
fundamental review or revision of American strategy in 
Afghanistan or international strategy in Afghanistan parallel 
to the review that accompanied the surge in Iraq in 2007. We 
have not yet seen that on the ground in theater, and I think we 
urgently need to.
    Mr. Smith. We could explore--but I am begging Mr. 
Thornberry's indulgence, and I want to give him a chance to ask 
his questions. We will follow up on that. We will try to come 
back to this, but Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman, and I appreciate 
very much the work of each of you.
    Dr. Kilcullen, one of the things this subcommittee has 
focused on a fair amount the past couple of years has been what 
we call strategic communications. I notice in your book you use 
a slightly different term, but as I recall, you put some 
importance on the government communicating in a clear, unified 
way as part of dealing with this accidental guerrilla, noting 
that what we do talks louder than what we say, admittedly. But 
I would be interested in your thoughts on where we are with 
that as a government and where we should go.
    And I am reminded--I am little hazy about this, but I think 
the radio woke me up this morning talking about allegations 
that we killed a bunch of civilians in Afghanistan this 
morning. And the military was saying, well, it wasn't really 
us; it was Taliban who may have played a role. And we have 
looked into a number of instances in the past where bad guys 
get in a firefight with our folks, and then before we can get 
back to the base, they have made it look like the bad guys were 
in prayer and were shot in the back of the head. I mean, they 
are really sophisticated in this area, and it looks to me like 
we are playing catch-up. So I would be interested in your 
views.
    Dr. Kilcullen. Thank you, sir. I would just make two quick 
comments. One is that we place a different priority within the 
military on information operations to the priority that our 
enemy places.
    The Taliban, as I have observed them in the field since 
2006, put informational propaganda first. So the first thing 
they do is they decide what is the propaganda mission that we 
are trying to send. Then they figure out what operations to 
design and carry out to meet that propaganda objective. We do 
it the other way around. We design how we operate, and at the 
last minute we throw it to the information ops folks and say, 
hey, can you just explain this to the public. So we use our 
information operations to explain what we are already doing. 
The enemy uses their physical operations to send a message, and 
I think that is the fundamental mental shift that we need to 
make.
    We have tended to treat information ops as a black art and 
as akin to artillery planning and of fixed targeting. So we 
have people looking at it as a targeting problem. It is 
actually not that. It is a political maneuver problem. And in 
the book, I get into a lot of detail about the political 
maneuver that we did that succeeded in eastern Afghanistan. The 
same would be true in Iraq. We carefully maneuvered to send a 
message in 2007.
    So I think some people, notably General Petraeus and people 
associated with the surge in 2007, do get this; but it is not 
necessarily structurally built into the U.S. Government. Some 
people have talked about recreating the U.S. Information Agency 
(USIA), which as you know was disestablished in 1998, became 
the odd bureau within State. I think it certainly couldn't 
hurt. But the information environment has changed a lot since 
USIA was designed. It is a much more itemized and fragmented 
media marketplace out there. So I think civil society is 
actually a very key part of this message that we are trying to 
send, and I would emphasize that element.
    And one final legislative issue. We had a lot of trouble in 
Iraq trying to counter al Qaeda in Iraq--propaganda--because of 
the Smith-Mundt Act, which meant that we couldn't do a lot of 
things online because if you put something on YouTube, and it 
is deemed to be information operations and there is a 
possibility that an American might load onto that page and read 
that and be influenced by that, that is technically illegal 
under the Smith-Mundt Act. And so we had to get a waiver, as 
you may recall, to be able to do that.
    I think for Congress it might be worth looking at how that 
legislation may need to be relooked at or reexamined in a lot 
of the new media environment, so that it still has the same 
intent but doesn't necessarily restrict us from legitimate 
things we might want to do in the field.
    Mr. Thornberry. Good point.
    Dr. Kagan, could I just ask you, briefly, as my time runs 
out, I understand what you are saying about we need to look at 
each place individually. But don't we need to push increased 
capabilities, for example, taking this, that could be available 
to be tailored to each particular location?
    Dr. Kagan. Yes, absolutely. And the thrust of my written 
testimony is anything we do anywhere, we draw from a pool of 
general purposes forces, both military and nonmilitary, that 
has to be adequately sized. And all I am trying to say on the 
specifics is the only way to size it is to basically look at 
each of the specifics and sum them up, which is not what we do.
    It is a question of we have always had this discussion 
about threat-based planning versus capabilities-based planning 
and so forth. Capabilities-based planning is just a way of 
deciding that you are not going to look at what the actual 
real-world requirement is, because it is budgetarily 
unpleasant. I don't think that is a good way to go in a world 
where we have active enemies who are actually shooting at us, 
trying to kill us every day.
    And I think what we should be doing is looking at what the 
real-world requirement actually is by going place by place, and 
the military can do this and does this to some extent, although 
not, frankly, it doesn't sum this up in the way it should, 
again because it is budgetarily unpleasant.
    I don't know the civilian side of things well enough, but I 
strongly doubt that this is done in that coherent fashion on 
the civilian side. So I don't think Congress is being presented 
with the information that it needs to understand what the real-
world requirement is. You are not going to fund the real-world 
requirement at 100 percent, of course, because that would be 
tantamount to insuring everything, so you can never take a loss 
on anything, and it is unreasonable. You have to accept risk.
    But until you have gone specific-by-specific and summed 
that all up and looked at what the real-world requirement is, 
you don't even know what risk you are accepting. And in the 
context of the current defense budget, where it has been made 
clear that we will be accepting risk, but where there has been 
virtually no public discussion anyway of how much risk we are 
actually accepting and where we are accepting it, I think this 
is a matter that Congress should interest itself in.
    Mr. Smith. Thank you. A couple of observations and a couple 
of questions.
    Smith-Mundt is something we have looked at and it 
absolutely needs to be fixed because of the way the Internet 
works, frankly. And the way other things work, you put any 
message out anywhere, it is going to get to an American, and 
Smith-Mundt did not contemplate that.
    The problem we are going to have and as you are lobbying 
and talking about this issue, it is something we want to try to 
fix. The problem we are going to have is sort of the paranoia 
of the American public right now that the government is trying 
to manipulate them. It certainly didn't help when we had the 
incidents of the reporters being paid.
    So if we open up the Smith-Mundt window--and I would love 
to be able to open it up, make that little tweak that you 
talked about, because I think it definitely needs to be done, 
maybe just expand the waiver ability, something--you are going 
to have a whole lot of folks on the other side who are going to 
come in and say, gosh, no, anything we need to do with Smith-
Mundt, we need to strengthen it. We need to make sure the 
government is doing none of this. And I just worry that if we 
walk down that path we will wind up with more of a problem than 
we can handle.
    On the country team thing and on whether or not it is the 
State Department job to sort of organize this, Mr. Kline was 
pointing out, let us know what is going on in country, what the 
threat environment is. I think you are absolutely right, Mr. 
Kagan. State Department is supposed to be about diplomacy. I 
think they do more than push paper, but it is diplomacy that 
they are focused on.
    Dr. Kagan. I mean that with the greatest of respect.
    Mr. Smith. It is important paper that is being pushed. I 
think the problem we have discovered as we have gone around, 
just did a trip to Africa and sort of ran through a bunch of 
different countries with a bunch of different problems, Yemen, 
Kenya, Morocco, Egypt. The problem is the Ambassador, the 
Charge D'Affaires, whoever, the Chief of Mission is the person 
who is in charge of the country. And yes, there are a lot of 
other people there who do a lot of other things, but they all 
respond to him. We are having a little bit of a problem with 
that actually in SOCOM and Military Liaison Elements (MLEs), 
DOD chain of command versus State Department chain of command.
    But I think Mr. Kline is essentially right; that if we are 
going to do this sort of holistic approach to a threat 
environment and take a walk through the messed-up world that we 
have and say, you know, where do we start at that zero point 
and how do we do that, the country team head has got to be the 
person who is, you know, this is where we are at, okay, and 
this is kind of what we would like to be done, and he is 
orchestrating it. Then you sort of move up from the country-by-
country level, maybe a regional organization, however you do 
it. I think that needs to be done.
    And I want to let Dr. Schirch comment on this, but ask an 
additional question, because the other thing that struck me as 
we look at this, the Brookings Institute did a study on failed 
states. Someone else did one about the same time. It is great. 
It is also like walking into your room where you haven't picked 
anything up in 15 years and going, where the hell do we start. 
There are so many countries with so many problems, rule of law, 
security, you know, if you put aside whether or not al Qaeda is 
in there trying to recruit, you know, just the basic governance 
issues. So how would we organize it both structurally, getting 
back to the State Department versus, you know, Chief of Mission 
issue, and then how would you prioritize when you are looking 
across one remarkably messed-up globe.
    Dr. Schirch. Absolutely. The challenge of addressing failed 
states, which many authors have been dealing with lately, has 
not taken into account something that Dr. Kilcullen noted; that 
the capacity for doing this is largely local in these 
countries, and it is strengthening and partnering from the U.S. 
to civil society, often, to build the capacity of their own 
state.
    Mr. Smith. Millennium Challenge Corporation, by the way, is 
outstanding, another change of the Bush Administration, that 
feeds into that local approach.
    Dr. Schirch. If I could just give an example, particularly 
on the strategic communication point as well that ties in with 
this one. I was in Iraq in 2005 working with Iraqi NGOs, and I 
took a lot of taxis. I talked with a lot of people. 
Overwhelmingly at that point, Iraqis felt that the U.S. was in 
Iraq for oil and to build permanent military bases. So, in 
terms of communicating what the U.S. interest was, there was a 
vast disconnect with what State Department people were saying 
here and what Iraqis on the ground felt. There was a large gap. 
And largely that was Iraqis in civil society looking at what 
was being done in their country and saying, a lot of civilians 
are dying, it doesn't feel like it is about this population-
centered security.
    At that point, I was working with Iraqi NGOs to integrate 
reconciliation activities into their development. So when they 
are giving microcredit loans, they had a precondition for a 
Sunni-Shia business plan. They were doing very small-scale 
reconciliation, building security from the ground up and being 
very effective at it, going from village to village. And they 
were a mixed NGO group of Arab, Kurdish, Sunni, Shia people, 
all working together, going into different communities, 
unarmed, spoke the local language, operated on security based 
on their relationships with people, and they were doing 
fantastic work all over Iraq.
    United States Institute of Peace, just in the last couple 
of years, has started to empower and build the capacity of 
local Iraqi NGOs and civil society to run the reconciliation 
workshops that are now happening across the country in Iraq.
    Mr. Smith. I am going to have to ask you to wrap up because 
I want to give my colleagues another chance. We have a 15-
minute vote. We have another 10 minutes before we have to 
leave, but just give me another quick 10, 15 seconds.
    Dr. Schirch. Just in terms of the country teams, I think 
looking at the United States Institute of Peace and the NGO 
community as the resources for some of these challenges.
    Mr. Smith. Okay. Jim, did you have anything more? I think 
everybody else is leaving.
    Mr. Marshall. Yeah, I do actually.
    Dr. Kagan, I thought maybe I was seeing a reprise or sequel 
to ``No Good Way'' as you were describing what needs to happen 
with the Afghan Army. And frankly, it is hard for me to see how 
we are going to have an effective enduring Afghan institutional 
army without having an Afghan government that is in much better 
shape than the current Afghan Government is. And I don't see 
how the Afghan Government is going to get into a much better 
position right now. Just the corruption and other challenges 
that they have got are enormous.
    But I am fascinated and would really like to explore your 
thoughts about this sort of divide between the appropriate 
responsibility given State historically, more than just pushing 
paper, and what we now recognize should be done, you know, in 
part because of repeated comments from folks like Dr. Lund and 
Dr. Schirch. I mean we all know this, that an ounce of 
prevention can really avoid a pound of cure; and that pound of 
cure comes with huge costs in terms of lives and limbs for 
Americans and others.
    And I don't necessarily agree with the Chairman's sort of 
summary, that it has to all be controlled or that the driving 
force, the guiding light, has to be the country team, unless 
country teams wind up getting redefined--which seems to me.
    And I would really like you to talk a little bit more about 
if you already had some thoughts concerning how we might 
reorganize. You have heard me say--I have said this many 
times--I am absolutely convinced we won't fund it as long as it 
stays in State and it is described as the historic diplomacy 
mission. We are just not going to do that. It is unrealistic to 
think we will. Political history is completely against the 
notion that we will. So what is your alternative to get the 
appropriate funding to have the ounce of prevention?
    Dr. Kagan. Let me start by clarifying the remark that I 
know is going to come out of this meeting. Full disclosure: My 
sister-in-law is a former ambassador, and I am very familiar 
with what ambassadors do, and I did not--I actually wasn't 
trying to denigrate the State Department at all, but simply to 
say there are things that they are designed to do and things 
they are not designed to do.
    And the issue isn't so much with the ambassador actually, 
and I want to make this point and I will give you the full 
disclosure. Ambassadors can--especially professional Foreign 
Service Officer ambassadors can be, and many of them are 
capable of thinking about these things and trying to do the 
right thing. What they rarely have is the right kind of staff 
to do the planning, you know, intelligence gathering, 
intelligence assessment, planning and so forth----
    Mr. Smith. Beyond their capability--sorry to interrupt 
here. I take Mr. Marshall's point. Beyond their capability, 
their responsibility within our flowchart, if we want to change 
that flowchart we can change it; but if the whole thing is by, 
through and with, okay, you work with the local population, 
whether it is on development or counterinsurgency. The 
ambassador is our representative in that country. If anything 
goes on in that country done by the United States of America 
that he doesn't know about, he or she is rightfully pissed off 
and completely undermined in their ability to do their job, the 
job that we have assigned that person to do. That is my only 
point. But go ahead.
    Dr. Kagan. So I think one of the questions is how are the 
missions staffed, and missions need to be staffed differently 
in different places. One of the things that sent shivers up my 
spine more than anything else are the discussions that you hear 
in the corridors of the new embassy complex in Baghdad about 
the need for the embassy to return to normalcy, by which is 
meant a normal diplomatic representation with some sort of 
foreign assistance. That is insane. It is not a normal 
situation, and the Ambassador in Iraq is going to continue to 
have to do things beyond the norm. But there is an 
institutional bias within State that drives against creating 
the structures that are necessary to do this.
    How do we fix it? Look, in the short term, the reason this 
is going into the military is because the military is the only 
organization that is capable of doing this, for two reasons. 
One, and the most important, is because the military does have 
the capability to put together planning staffs to develop 
intelligence analysis, plan, conduct and execute operations on 
this scale, and we don't have country teams on the whole that 
can do that, with a handful of exceptions, and that is probably 
going to persist for some time. So, in the short term, I doubt 
that there is an alternative to putting this kind of resource 
through the military in areas where we have troops present, in 
countries where we have a very active military assistance 
program and so forth.
    In the long term, I can't tell you what the structure 
should be. I can tell you what it shouldn't be. It shouldn't be 
what we have, nor is there going to be a simple fix like making 
USAID a Cabinet post or something, or pulling it out of the 
flowchart. Because what we have to do--look, we do want USAID 
to be a part of our public diplomacy. We do give foreign 
assistance for that reason. We do want to alleviate poverty. We 
do give assistance. We don't want to stop doing that. But we 
also can't have USAID as a national security tool beholden to 
those principles, as it is right now.
    So I suspect that the long-term fix for this is going to 
require two separate organizational structures, either within 
one USAID organization--although I am skeptical of that--or in 
two separate organizations. And I would say I don't see that it 
matters whether this is housed at DOD or State or somewhere 
else. And I think that we need to get over the allergy to 
making this a DOD function. There are lots of things that are 
DOD functions that could be done elsewhere.
    I agree with you that if you want to be funded--but I would 
say even more importantly, if you want this to be integrated 
well into our national security strategy and executed well as 
part of that, integrating it into DOD is probably the best 
long-term solution. But this is something that I think really 
merits very, very serious study and much more serious study 
than it has received. I am sorry I can't offer you more 
specific than that.
    Mr. Smith. I think the bottom line is it is an interagency 
approach. It has to be an interagency approach. No one agency 
is going to be in charge. The key is, how do they cross over.
    Dr. Lund. There are definitely exceptions to how the 
country teams relate to these issues. It has been enough years 
so I can sort of say this.
    In Zimbabwe, USAID was keeping its own sort of early 
warning grid for some years and not letting the ambassador know 
they were doing it because they felt that maybe, you know, he 
would want to take it over, he wouldn't do it right and so on, 
but this is seven, eight years ago, before the crisis really 
grew, and adjusting their programs as much as they could to 
these drivers of conflict.
    In Mindanao, we have got the ambassador and U.S. 
administrator, just like this in the southern Philippines. A 
lot of programs pushed into Mindanao over the last seven, eight 
years, quite integrated, quite strategically targeted and so 
on. They need a little tweaking here and there, but linked up 
with the military aid to the Philippine marines, and in local 
areas, working in Basilan, for example, working in tandem with 
each other more or less.
    So it really is where the leadership can be carried out. So 
I think maybe the security rubric is really important overall, 
but the fact that you can save money, I mean, doesn't that have 
some marketability these days?
    Mr. Marshall. We have always known that. I am sorry. I 
mean, this is not new news. We have known this for generations, 
and we still have a problem politically sustaining it. So from 
a strategic perspective, that is all I am offering here, is 
sort of oversight; somebody needs to think through how this is 
sustainable, because this problem is not going away for the 
foreseeable future as weapons become more sophisticated and 
available retail.
    Mr. Smith. Dr. Kilcullen.
    Dr. Kilcullen. I just wanted to answer your question.
    One of the things that we did towards the end of the Bush 
Administration--which was actually signed off on by the 
Secretaries of State, Defense, and the Administrator of USAID 
just before the inauguration, and I believe has received 
support from the Obama Administration as well--was we produced 
an interagency counterinsurgency handbook designed for 
policymakers at the higher level in the legislative and 
executive branch.
    And in that we talked about something called a mission 
augmentation team, which is a small team that goes into an 
embassy that has one of these situations of a developing 
insurgency or conflict prevention, and it is specifically 
tailored to support that country team in exercising the 
responsibilities that you are talking about. So we have 
approved a structure to actually do that. I don't know if the 
current State Department leadership plans to go ahead and 
develop that fully, but it is there, it is approved, and it is 
something that we may want to look at to build this capacity 
that you are talking about.
    In writing that handbook, we went into a lot of detail on 
prevention, and we also now have interagency agreement on some 
of the prevention issues that are required. So a lot of the 
intellectual foundation is there.
    The problem I would go back to is, State is the size of an 
Army brigade, you know, it is 6- to 8,000 people, and it is 
just not big enough to do a lot of this stuff. It needs to be 
bigger and better resourced. And I know Fred was being a little 
flippant, but you know, the reason that we managed to get the 
CIA into Afghanistan 27 days after 9/11 was the State 
Department, basing, overflight, fuel supply, diplomatic 
clearance, preventing the Russians and the Iranians from 
interfering. That was all State Department. State Department 
work, diplomacy is like air support. You don't walk down the 
street in Baghdad and look to your left and see an airman 
providing air superiority and to the right and see a diplomat. 
But you can't operate without those two guys.
    Mr. Smith. We have got to run, could talk about this for a 
great deal of time. You have all been very, very helpful. I 
think this is critical. I didn't even get into the questions 
about the budget, how we go forward on this and how we plan for 
implementing the strategy, but obviously, this has come out 
from our conversation here, and it is not just the DOD budget, 
it is the whole budget. And I like the idea of a sort of 
holistic security approach across agency lines in terms of how 
we put together the budget, and I think there are some good 
ideas there. And of course there are tough choices involved, 
and everyone is always very good in government at telling you 
where we should spend the money. It is getting the people to 
say this is where we shouldn't spend it that is always, always 
the challenge.
    But thank you, and certainly this committee wants to stay 
in touch with all of you. I think you have very important 
knowledge and insights on this critical subject. So thank you 
for your testimony, and we are adjourned.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                              May 7, 2009
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 7, 2009

=======================================================================
      
    [GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
